 ..                 ..   . .




                                OVERVIEW OF

                               AN



                         INTRAOCULAR LENS COSTS





              ,(S    VIC




  't '
 ,0(


  '0

       .t
            :tol
                   Yd:m .


OFFICE OF 
                         INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPECTIONS
                                                        JUNE 1990
                          OFFICE OF INSPECTOR GENERAL
The mission of the Ofce of Inspector Genera (OIG) is to promote the effciency,
effectiveness and integrty of progrs in the United States Deparent of Health and Human
Services (HS). It does thisby developing methods to detect and prevent frud, waste, and
abuse Create by statute in 1976, the Inspector General keeps both the Secreta and the
Congress fully and curently informed about progrs or maagement problems and


countr.
recommends corrective action. The OIG performs its mission by conducting' audits
investigations, and inspections with approximately 1 400 staf strtegically located around the



                  OFFICE OF EVALUATION AND INSPECTIONS
This report is prouced by   the Offce of Evaluation and Inspections (OE!),   oneof the thee
major offces withn the OIG. The other two are the Offce of Audit Services andtheOfuce of
Investigations. Inspections ar conducte in accordace withprofessionals     dads
developed by OEl. These inspetions     ar tyicaly short-term studies designed to determne
progr effectiveness, effciency, and vulnerabilty tofraud or abuse.
Th report is an overvew of information collected durng th       reent OIGstudiesregarding
introcular lens prices.

The report was prepar under the dition of Don McLaughlin , Regional Inspector Genera,
and Jares H. Wolf, Deputy Regional Inspector Genera, Region Vll , Offce of Evaluation and
Inspections. Parcipating in this project were the following people:

Kansas      City Region                      Headquarters
Tim Dold,   Team Leader                      Wayne Powell
Deborah Walden Project Leader                Mark Krushat
                                             Brian Ritchie
              AN OVERVIEW OF

          INTRAOCULAR LENS COSTS





                     Richard P. Kusserow
                     INSPECTOR GENERAL




OEI. 07. 89-o16664                         JUNE 1990
                     AN OVERVIEW OF

                  INTRAOCULA LENS COSTS




                   Richard P. Kusserow

                    INSPECTOR GENERAL





OEI-07-89-01664                           June 1990
                           EXECUTIVE SUMY


PURPOSE

This report presents a summary of information collected during

three recent Office of Inspector General (OIG) studies

regarding intraocular lens (IOL) prices.

BACKGROUND

The Medicare program funds 90 percent of the cataract surgeries
performed in the united     States.
                                 During cataract surgery, the
natural lens in the eye is removed. In over 95 percent of the
cataract surgeries an intraocular lens is implanted , replacing
the removed natural      lens.
                           In addition to replacing a natural
lens removed from the eye during cataract surgery, IOLs are
also used to replace a natural lens missing due to disease or
congeni tal   absence.
The Medicare program approved payment for 1. 1 million cataract
surgeries in    1988.
                    Medicare allowed charges for IOLs billed in
connection with 25 percent of these surgeries averaged about
$324 each.
Based on OIG recommendations , Federal Regulations published
February 8, 1990 , established a single payment rate of $200 for
IOLs provided to Medicare patients in connection with cataract
surgery performed in an ambulatory surgical center (ASC).
Prior to March 12, 1990, the effective date of these
regulations, Medicare reimbursement for cataract surgeries
performed on an outpatient basis or in an ASC were to be
reimbursed by Medicare based on charges subj ect to reasonable
cost limitations.
METHODOLOGY

The information presented in each of the reports upon which

this overview is based, was gathered using three separate

samples.
Information regarding the purchase of IOLs through the Federal

Supply Schedule (FSS) was gathered through telephone interviews
with ophthalmologists and/or procurement specialists in a
sample of Veterans Administration (VA) and military hospitals
nationwide. The sample consisted of 10 VA and 10 military
hospitals .
Information regarding the purchase of IOLs by Indian Health
Service (IHS)  hospitals was gathered from the only four IHS
hospi tals where cataract surgery is performed. Interviews were
conducted with an ophthalmologist in each of the four

hospitals ,and procurement specialists in three.
Canadian IOL costs are based on information collected from a

sample of Canadian hospitals. In establishing our sample

Provincial Purchasing Directors in each of the ten Canadian

Provinces provided us with names of Canadian hospitals where

cataract surgery was performed. We asked purchasing directors
in each of those hospitals to provide information regarding

hospital IOL prices and contracts. The rate of currency

exchange on December 31, 1989 , was used to convert Canadian

prices to U. S. dollars. We also interviewed purchasing

directors and ophthalmologists in 13 of the sample Canadian

hospitals.
FINDINGS
The average cost of an IOL is $155 in IHS hospitals and $110 in

Canadian hospitals


The IHS hospitals purchased 47 percent of their IOLs for under

$149 and Canadian hospitals purchased 93 percent of their IOLs

for under $149


IOLs are available on the FSS for $95 to $198

Low IOL prices can be achieved without high volume purchases

The IOL manufacturers are competi ti ve and respond to effective
negotiating techniques

RECOMMENDATION

Our findings lead us to conclude that Medicare I s reimbursement
rate for IOLs is considerably higher than the price established
in other markets.  We recommend the Health Care Financing
Administration explore reducing the IOL single payment
reimbursement rate to no more than  $150. At that price
Medicare allowed charges would be reduced by $55 million.    At
$125 per lens savings would be $82 million and at $100 per   lens
savings would be $110 million.
                 . . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ... ... ... ... ... ... ... ... ... . . . . . . . . . .. .. .. .. .. ..
                                                                                                                           .. ... ... ... ... .. .. ..




                                                                 TABLE OF CONTENTS


                                                                                                                                                                 Page

EXECUTIVE SUMMRY.......................................


INTRODUCTION


I?1JJi)?()S;


1J1\   JCC;R()1JJql). . . . .




METHODOLOGY.




FINDINGS.



            The average cost of an IOL is $155 in IRS

            hospi ta1s and $110 in Canadian hospitals...........


            The IRS hospitals purchased 47 percent of

            their IOLs for under $149 and Canadian

            hospi ta1s purchased 93 percent of their

            IOLs for under $149................................


            IOLs are available on the FSS for

            $95 to $198........................................


            Low IOL prices can be achieved without

            high volume purchases..............................


            The IOL manufacturers are competi ti ve and
            respond to effective negotiating techniques........



RECOMMNDATION.
                                                                                                 . . . .




APPENDIX       A......   0 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             A-1
           Intraocular Lens Costs in IRS Rospi                          ta1s
APPENDIX       B.............................................                                              B-1
           Intraocular Lens Costs in Canadian Rospi                               ta1s
APPENDIX       C.............................................                                              C-1
           No Direct Correlation Exists Between
           IOL Volume and Price
                             INTRODUCTION




PURPOSE

This report presents a summary of information collected during

three recent Office of Inspector General (OIG) studies

regarding intraocular lens (IOL) prices.


BACKGROUND

The Medicare program funds 90 percent of the cataract surgeries
performed in the united     states.
                                 During cataract surgery, the
natural lens in the eye is removed. In over 95 percent of the
cataract surgeries an intraocular lens is implanted, replacing
the removed natural      lens.
                           In addition to replacing a natural
lens removed from the eye during cataract surgery, IOLs are
also used to replace a natural lens missing due to disease or
congeni tal   absence.
The Medicare program approved payment for 1. 1 million cataract
surgeries performed in ambulatory surgical centers (ASCs) and
hospi tal outpatient departments in    1988.
                                          Data released by the
Public Health Service indicates the frequency of cataract

surgery continues to increase, with some moderation. Medicare
allowed charges for IOLs billed in connection with 25 percent
of these surgeries averaged about $324 per lens in 1988.

Changes have occurred with the reimbursement and place of
cataract surgery. Medicare reimbursement for cataract surgery
performed in a hospital inpatient setting is based on
Diagnosis-Related Group (DRG) rates. A DRG rate covers all
services and supplies connected with a surgery, including
intraocular lenses for cataract surgery patients. However,
advances in medical technology have shifted the majority of
cataract surgeries into hospital outpatient facilities or ASCs.
until recently, Medicare reimbursement for cataract surgeries
performed on an outpatient basis or in an ASC were to be
reimbursed by Medicare based on reasonable cost determinations.
In these situations , intraocular lenses were to be billed and
paid for separately.

Five OIG studies have been conducted regarding the

reimbursement for intraocular lenses. The first study,

entitled "Medicare Cataract Implant Surgery, " (OAI-85-09-046),
was issued in    1986.
                     This study reported that Medicare
reimbursement principles neither required nor encouraged

providers to obtain lenses at the lowest available price, and

that the average Medicare reasonable charge payment to an

ophthalmologist or an ASC for an IOL was $365. The inspection
also found that discounts were available from major

manufacturers ,and that in Canada , the same U. S. manufactured
lenses averaged less than  $200. This study estimated that over
$31 million would have been saved in 1984 , if Medicare lens
payments had been capped at $200.   The study recommended that a
national cap, based on a generic prudent buyer concept , be
established for lens payments when lenses are billed
separately.
The second study, entitled "Medicare certified Amulatory
Surgical Centers " (OAI-09-88-00490), was issued in  1988.  This
study reported that the problems regarding lens payments
discussed in the 1986 report had not been resolved.
Manufacturers continued to offer discounts , incentives and
rebates that were not passed on to the Medicare program , and
that Medicare reimbursement policy did not provide an incentive
for providers to be prudent buyers. The OIG again recommended
that the Health Care Financing Administration (HCFA) establish
a national Part B reimbursement cap of $200 for any intraocular
lens billed to Medicare.


More recently, we conducted three additional studies focusing
on IOL prices , which are summarized in this overview report.
The first was issued in the form of a Management Advisory
Report (MA), entitled "Intraocular Lenses Purchased through
the Federal Supply Schedule (FSS), " (OAI-07-89-01661) in
November 1989. This study, reported that quality IOLs are
available on the Federal Supply Schedule. The lenses cost $95
to $198 , and that the majority of Veterans Administration (VA)
medical centers and military hospitals purchase IOLs outside
the FSS for under $200. The OIG recommended that the HCFA use
the information presented in adjusting IOL reimbursement rates.

The next study, entitled "Intraocular Lenses Purchased by
Indian Health Service (IHS) Hospitals, " (OAI-07-89-01662) was
issued January 4, 1990, in the form of a  MA.   This study
reported that Indian Health Service Hospitals purchased 466
IOLs for an average of $155, and that IOL manufacturers are
competitive. The OIG recommended that the HCFA consider the
prices paid by IHS hospitals for IOLs in adjusting Medicare IOL
reimbursement rates.

The most recent report , entitled "Intraocular Lens Costs in
Canadian Hospitals, " (OAI-07-89-01660) issued April 26, 1990
reported that Canadian hospitals purchase IOLs for an average
of $110 each and that low prices can be achieved even for low
volume purchases. Several effective negotiating techniques
used by Canadian hospitals in securing IOL contracts were also
reported. The OIG again recommended that the HCFA consider the
prices paid by Canadian hospitals in adjusting Medicare IOL
reimbursement rates , and that the HCFA inform U. S. hospitals of
the effective contracting practices noted in the  report. It
was noted that the Medicare program would save $99 million
annually if Medicare reimbursed for IOLs at the average

Canadian price of $110 , rather than the current Medicare

reimbursement rate of $200.
Federal Regulations published February 8 , 1990 , became

effective March 12 , 1990, establishing a single payment rate of
$200 for IOLs provided to Medicare patients in connection with
cataract surgery performed in an ASC. They also serve as a
base for IOL payments to hospitals for cataract surgeries
performed in their outpatient departments.

We recently received information from the Audit Division for

the National Health Program in London , England , that they

purchase IOLs from a U. S. manufacturer for approximately 30
pounds , ($50) each. The contract covers 15 000 one- piece
posterior chamber IOLs to be purchased during a 3- year period.
It also covers the purchase of necessary anterior chamber

lenses at the same price.


METHODOLOGY

A different methodology was used to gather 1989 IOL price

information in each of the three studies summarized in this

report.
In conducting the "Intraocular Lenses Purchased through the

Federal Supply Schedule" study, we contacted VA and military
hospital personnel. A list of the 166 VA medical centers
nationwide was obtained from the VA. A similar list of the 141
military hospitals nationwide was also obtained. A random
sample of 10 hospitals was then selected from each list , for a
total of 20 hospitals where cataract surgery is performed. We
conducted telephone interviews with an ophthalmologist and/or a
procurement specialist in each of the 20 sample   facilities.
In conducting the "Intraocular Lenses Purchased by Indian
Health Service Hospitals" study, information was gathered from
the only four IHS hospitals where cataract surgery is
performed. We conducted telephone interviews with an
ophthalmologist in each of the four  hospitals. Procurement
specialists in three of the four hospitals were also contacted
to obtain information the ophthalmologist was unable to
provide.
In conducting the   Intraocular Lens Costs in Canadian
Hospitals" study, we contacted provincial purchasing directors
who provided the names of 19 Canadian hospitals where cataract
surgery is performed. We then contacted the hospital
purchasing director in each of the 19 hospitals to solicit
information regarding contract prices for IOLs purchased by
their hospitals.   We requested the number of lenses purchased
under their contracts, the time period covered by the
contracts , the types of lenses purchased (one- piece posterior
multi-piece posterior, or anterior chamber) and lens stock
numbers. Finally, we requested information regarding any
discounts , free equipment , or supplies received in conjunction
with IOL purchases.

In addition to collecting IOL prices , we used discussion guides
to conduct telephone interviews with 12 directors and 8
ophthalmologists in 13 of the 19 Canadian hospitals. The
remaining directors or ophthalmologists refused to be
interviewed or could not be contacted.

Our calculation of the average cost of an IOL in Canada is
based on information received from 15 of the 19 hospitals. One
of the 19 hospitals declined to participate in our study, and
another' s information was never received , resulting in the
collection of IOL price information from only 17 hospitals.
Information received from 2 of the 17 hospitals was
insuff icient and could not be used.

The currency rate of exchange between Canada and the united
states on December 31, 1989, (. 8734 U. S. dollars for each
Canadian dollar) was used in calculating U. s. prices for
Canadian IOLs. All Canadian IOL contract price information
received, for which the contract time period is known , was in
effect on that date.

                               FINDINGS

The average cost of an IOL is $155 in IHS hospitals and $110 in

Canadian hospitals


In Fiscal Year 1989 , the IHS hospitals paid an average of $155
for a total of 466 IOLs purchased from two well-known
manufacturers , neither of which is listed on the FSS.  The
in the chart below.
average price of an IOL in each of the IHS hospitals is shown


                       Average IOL Prices
                             IHS Hospitals


                     Annual      Average
                     Contract
     Hospi tal       Volume       Dollars     Total Dollars

                      218         $134.            29, 244.
                      106         $166.            17, 626.
                                  $168.                078.
                                  $186.             17 484.
     Total            466                          72, 434.
     Average IHS   IOL Price                              155.

The sampled Canadian hospitals negotiated an average price of
$110 for the purchase of 10, 844 IOLs under annual contracts
wi th nine U. S. manufacturers, as shown in the following chart.

                        Average IOL Prices


                        Canadian Hospitals


                      Annual      Average
                      Contract
     Hospi tal        Volume      Dollars     Total Dollars

                       757        $ 90.                  , 470.
                      1400        $ 72.            101, 850.
                       326        $109.                 592.
                                  $148.                 424.

                      1540        $128.            197 736.

                       990        $ 89.                 060.

                       850        $ 94.                 917.

                       252        $120.                 343.

                       551        $123.                 993.

       #10/11         1473        $121.            178 733.

                      Anual    Average
                      Contract
    Hospi tal         Volume   Dollars       Total Dollars

       #12             1460        $118.           173, 462.
       #13              264        $245.            64, 796.
       #14              450        $112.               701. 50
       #15              481        $ 93.               079.
    Total                 844                $ 1   191 160.
    Average     Canadian IOL Price                     109.
Overall average prices paid by the IHS hospitals ranged from
$134 to $196. Negotiated prices for IOLs ranged from $125 to
$278 per lens as shown in Appendix A. MUlti- piece posterior
chamber lenses account for 416 (89 percent) of the lenses
purchased in these hospitals. Even though one IHS hospital has
negotiated to purchase one- piece posterior chamber lenses for
$175 , none were purchased in 1989.
Under their current contracts , overall average IOL prices in
the sampled Canadian hospitals ranged from $73 to $245.
Negotiated prices for IOLs ranged from $68 to $279 per lens,
wi th only one Canadian hospital paying more than $200 for an
IOL as shown in Appendix      B.
                              These contracts cover a variety of
lens types , and represent over 10 percent of approximately
100, 000 IOLs implanted annually in Canada.
It should be noted that the average Canadian IOL price of $110

includes the purchase of one- piece posterior chamber lenses

generally considered to be more expensive. The
ophthalmologists interviewed indicated approximately 55 percent
of the IOLs they purchase are one- piece lenses. Forty percent
of the IOLs purchased are multi- piece posterior chamber lenses,
and the remaining five percent are anterior chamber lenses.
Eleven of the twelve Canadian purchasing directors interviewed
indicated they purchase the contract IOLs on a consignment
basis. In  such arrangements, the IOL manufacturer(s) provide
the hospitals with an inventory consisting of a variety of lens
styles and sizes. This inventory is provided to the hospital
at no additional charge, and allows the hospital to pay for
lenses as they are used.
                                                             """"-""".._,....,
                                                             ...--.......".,......_
                                                                                ...




The IHS hospitals purchased 47 percent of their IOLs for under

$149 and Canadian hospitals purchased 93 percent of their IOLs

for under $149


The IHS hospitals purchased 47 percent of their IOLs for under
$149.  The Canadian hospitals purchase 93 percent of their IOLs
for under $149. Collectively, the IHS and Canadian hospitals
purchase 91 percent of their IOLs for under $149.




                  Percentage of IOLs by Price

           Percentage of Total Volume
     120

     100                                   ._u._-- f3- 98

      80 -­
                                                                                  . m..   ""''''''''_h.........,..._n,





      40 ----_u




              Under $110       Under $149 Under       $201                        Over $201
                                      Price
                           IHS Hospitals       Canadian Hospitals




Medicare reimbursement for most medical items is based on the
50th percentile for customary charges and the 75th percentile
as a prevailing charge , rather than a fixed amount (i.  , $200
for an IOL).  The sampled Canadian hospitals purchase 50
percent of their IOLs for under $110 , and the IHS hospitals
purchase nearly 50 percent (47 percent) for under $149. Both
the IHS and sampled Canadian hospitals purchase 98 percent of

their IOLs for less than            $200.
                                 Only two percent of the IOLs
purchased by IHS or Canadian hospitals cost in excess of the
current Medicare reimbursement rate of $200 per lens.
Appendices A and B display complete lists of IOL costs in the

IHS and Canadian hospitals.

IOLs are available on the FSS for $95 to $198

Four IOL manufacturers have negotiated contracts with the VA to
offer several different lenses on the FSS, all for under $200.
The FSS prices for IOLs range from $95 to $198. A one- piece
lens is available on the FSS for $198.

The Food and Drug Administration approves all of the lenses on

the FSS. We found nothing which indicated that

ophthalmologists perceived lenses listed on the FSS as being

lower quality. The two ophthalmologists we contacted who use

IOLs listed on the FSS reported satisfaction with the quality

of the lenses.


Low IOL prices can be achieved without high volume purchases


No direct correlation exists between price and the number of
IOLs purchased by either the IHS or Canadian hospitals. The
average prices paid by the IHS hospitals ranged from $134 to
$186 for volumes ranging from 48 to   218. The average prices
paid by Canadian hospitals ranged form $73 to $245 for volumes
ranging from 50 to   1540.There was no' significant correlation
between volume and price in either case, as indicated in the
charts in Appendix
The IOL manufacturers are competitive and respond to effective

negotiating techniques

ophthalmologists interviewed in all four of the IHS hospitals
indicated that IOL manufacturers are competitive and willing to
lower prices to acquire more   business. Intwo of the four
facilities, the ophthalmologists indicated that price was a
deciding factor in their decision to purchase IOLs outside the
FSS.
All 12 of the Canadian purchasing directors interviewed stated
they had effectively reduced IOL prices over the last couple of
years.  They attribute these price reductions to their
negotiations and bidding processes for IOL contracts. All
Canadian hospitals purchase their IOLs under negotiated
contracts.  These contracts vary in terms of bid solicitation,
selection of lens types , information required from IOL
companies and contract approval. On the average, four IOL
manufacturers compete for the IOL contracts in each hospital.
We found that:


       Canadian hospitals solicit bids from several

       manufacturers when negotiating IOL contracts.


       The number of manufacturers competing for the IOL

       contract (s) in each Canadian hospital ranged from

     three to seven, and averaged four per hospital.
     Purchasing directors hold the opinion that broader
     bidding holds down costs.
     Canadian hospi tala contracting with more than one
     manufacturer purchase IOLs for less

     The seven Canadian hospitals contracting with more
     than one IOL manufacturer pay an average of $90 per
     lens.   Hospi tals contracting with one manufacturer
     exclusively pay an average of  $102.   Even though the
     average price difference is only $12, applying a per
     lens savings of $12 to the total volume of 5169
     lenses purchased by hospitals currently contracting
     wi th only one company would result in a $62, 028
     savings to Canadian hospitals.

     Contracts of 24 months or less produce lower average

     IOL prices


     Canadian IOL contract periods averaged 21 months
     ranging from 12 to 40 months. Canadian hospitals
     purchasing under contracts of 24 months or less paid
     an average of $105 for each  IOL. Hospi tals
     purchasing under contracts in excess of 24 months
     paid an average of $122 per IOL, over $17 more per
     lens.
                         RECOMMNDATION

Our findings lead us to conclude that Medicare I s reimbursement
rate for IOLs is considerably higher than the price established
in other markets.  We recommend the Health Care Financing
Administration explore reducing the IOL single payment
reimbursement rate to no more than $150. At that price
Medicare allowed charges would be reduced by $55 million. At
$125 per lens savings would be $82 million and at $100 per lens
savings would be $110 million.
*******************                                   *************



                                                       Appendix A





                      Intraocular Lens Costs


                          IHS Hospitals





                               Contract
    Manufacturer               Vol ume                 Price
     Company F                      177                $125.
     Company E/G/H                                     $143.
     Company E/G/H                                     $143.
******************* 47 Percent Under $149 (219) **************
     Company E/G/H                                     $158.
     Company E/G/H                                     $169.
     Company F                                         $170.
     Company                                           $170.
     Company F                                         $185.
     Company F                                         $186.
     Company F                                         $186.
     Company E/G/H                                     $200.
                      98 Percent   Under $201 (457)
     Company E/G/H                                      $278.




                                   A-I
** ** **** * **
             * * ** ** ** * * * * * *




                                                                           Appendix B

                                            Intraocular Lens Costs


                                              Canadian Hospitals



                                                      Contract             U. S.
           Manufacturer                               Volume                Price
           Company
           Company
                              A

                              A

                                                      200
                                                      200
                                                      1000
                                                           $68.
                                                           $69.
                                                           $74.

           Company            A

                                                      700
                                                      412  $78.

                                                           $87.

                                                      219  $87.
           Company            A

           Company            A

           Company            A

                                                       2  $89.

                                                       2 $89.
                                                      268  $89.
           Company            E

           Company            E

           Company
           Company
                              E

                              E
                      148
                                                       25  $89.

                                                          $89.

           Company            E

                                                       10 $89.

                                                      113  $89.

           Company
           Company
           Company
                              E

                              E

                              E
                      877
                                                      150
                                                       60
                                                           $89.
                                                           $91.

                                                          $91.

           Company
           Company
           Company
           Company
                              D

                              D

                              G

                              C

                                                      395
                                                       76  $96.
                                                          $100.

                                                       27 $100.

           Company
           Company
           Company
                              B

                              F

                              F

                                                        240
                                                        300        $104.

                                                                   $109.

                                        50th Percentile***** (5 422) *******************
           Company F

           Unknown
                                                       26
                                                       50  $109.

                                                           $112.

           Unknown
           Company            E

                                                      400
                                                      127  $112.

                                                           $113.

           Company            H
                      1400
                                                       52   $117.

                                                           $120.

           Company
           Company
                              H

                              H
                      200
                                                      292  $120.

                                                           $122.

           Company
           Company
           Company
                              E

                              G

                              G

                                                       60  $122.

                                                      108 $122.

           Company
                               * **7 5th
                              G
                        2 $122.

                                             Percentile***** (8, 133) *******************
                                                       165 $122.

           Company
           Company
                              G

                              G
                        2 $122.

                                                        2  $122.

           Company
           Company
                              G

                              G
                        7
                                                        32 $122.

                                                           $122.

           Company
           Company
           Company
                              G

                              G

                              G

                                                        7  $122.

                                                        25 $122.

                                                      B-1
                              Contract
    Manufacturer              Volume              Price
     Company   G
                                  $122.
     Company   G
                                  $122.
     Company   A
              122                 $131.
     Company   A
                                  $131.
     Company   F
             1300                 $132.
     Company   E
              132                 $135.
     Company   H
                                  $139.
     Company   C
                                  $148.
*****************93 Percent Under $149 (10 076) **************
     Company F                                     $165.
     Company E                 150                 $165.
     Company F                 312                 $165.
     Company A                                     $174.
     Company E                                     $196.
     Company E                                     $196.
     Company E                                     $196.
****************98 Percent Under $200 (10 728) **************
     Company F
                                    $222

     Company I                                     $240.
     Company   E
                                  $257.
     Company   E
                                  $257.
     Company   E
                                  $257.
     Company   E
                                  $257.
     Company   E
                                  $275.
     Company   E
                                  $275.
     Company   E
                                  $275.
     Company   F
                                  $275.
     Company   E
                                  $278.
     Total Volume
          10, 844




                              B-2

                                                                              Appendix C


   No Direct Correlation Exists Between

      Annual lOL Volume and Price

                         Canadian Hospitals

         Annual Volume                                               Price'
                                                                                  $300
  1500
                                                                                  $250
  1250
                                                                                  $200
  1000
                                                                                  $150
   750

   500                                                                            $100

   250                                                                            $50

                                                      10/11 12 13   14
                                       Hospital #

                         Contract Volume            Average Price

.Prices shown have been converted to
 S. dollars for comparison purposes
                              IHS       Hospitals
         Annual Volume                                                   Price'
   250                                                                            $200

  200
                                                                                  $150

   150
                                                                                  $100
   100

                                                                                  $50




                                       Hospital #

                         Contract Volume            Average Price
                                           C-1
